OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S
COMMODITIES FOR AVIAN
INFLUENZA ACTIVITIES
AUDIT REPORT NO. 9-000-09-006-P
April 30, 2009




WASHINGTON, DC
April 30, 2009

MEMORANDUM

TO:              GH/HIDN/AI, Director, Dennis Carroll

FROM:            IG/A/PA, Director, Steven H. Bernstein /s/

SUBJECT:         Audit of USAID’s Commodities for Avian Influenza Activities (Audit Report
                 No. 9-000-09-006-P)

This memorandum transmits our final report on the subject audit. We have considered
your comments on the draft report in finalizing the audit report and have included your
response in appendix II of the report.

The report contains five recommendations to improve USAID’s management of the
commodities for avian influenza. Based on your comments and documentation provided,
final action has been taken on all five recommendations.

I appreciate the cooperation and courtesy extended to my staff during this audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

     Audit Objective ............................................................................................................ 4

Audit Findings ................................................................................................................. 5

     Improved Process for Managing Commodities ........................................................... 7

     USAID Needs to Determine the Usefulness
     of the Regional Distribution Center ............................................................................. 8

     Warehouse Space Could Be Managed
     More Efficiently.......................................................................................................... 10

     USAID Should Dispose of Unusable,
     Expired, and Damaged Commodities ....................................................................... 15

     USAID Should Document Understanding
     with the United Nations Food and Agriculture
     Organization in Indonesia ......................................................................................... 17

Evaluation of Management Comments ....................................................................... 19

Appendix I: Scope and Methodology ......................................................................... 20

Appendix II: Management Comments ........................................................................ 22

Appendix III: Warehousing Standards ....................................................................... 27

Appendix IV: Map of Outbreaks.................................................................................. 29

Appendix V: Distribution of Commodities Since March 2007.................................. 30
SUMMARY OF RESULTS
The U.S. Government has grown increasingly concerned about the presence and rapid
spread of the H5N1 strain of highly pathogenic avian influenza virus around the world,
and the potential that it could spark a deadly human flu pandemic. U.S. Government
support for avian influenza control is designed with the overall goal of protecting human
and animal health and mitigating the economic, social, and security consequences of
highly pathogenic avian influenza in all regions of the world. In accordance with the U.S.
Government’s National Strategy for Pandemic Influenza, USAID plays a leading role in
the international effort to combat avian influenza. In December 2005, Congress
appropriated $56.3 million to USAID for the prepositioning and deployment of essential
supplies and equipment to prepare for and respond to the avian influenza virus (page 3).

The Office of Inspector General conducted this audit to determine if USAID properly
procured, deployed, and warehoused avian influenza commodities (page 4).

In general, USAID properly procured, deployed, and warehoused its avian influenza
commodities for the locations tested. USAID properly procured these commodities in
accordance with USAID guidance, commodities were received in a timely manner and
were available when needed, and storage conditions at warehouse facilities visited by
the auditors generally met the standard warehouse operating procedures approved by
USAID (page 5). However, the audit noted some opportunities for USAID to improve
program operations. Some areas of concern noted in Indonesia and Thailand were
related to (1) determining the usefulness of the regional distribution center in Thailand
(page 8); (2) reducing excess warehouse space (page 10); (3) properly disposing of
unusable, expired, and damaged commodities (page 15); and (4) obtaining a formal
agreement with one of the implementing partners (page 17).

This report recommends that USAID’s Bureau for Global Health’s Avian and Pandemic
Influenza Management and Response Unit (Avian Influenza Unit):

   •   Ensure that a cost analysis and justifications for all shipments to Asia are
       documented, and conduct an assessment of the usefulness of the regional
       distribution center in Thailand (page 10).

   •   Establish a procedure to review warehouse space requirements, review the
       flexibility under the current lease agreement to renegotiate warehouse space,
       and consider options for alternate warehousing to realize savings of
       approximately $91,000; ensure that unusable, expired, or damaged
       commodities are properly identified and isolated; and stack commodities as
       efficiently as possible to make full use of the space available (page 14).

   •   Work with the appropriate United Nations Food and Agriculture Organization
       personnel to develop procedures for proper inventory management of
       commodities (page 14).

   •   In conjunction with its implementing partners, review the items at the
       warehouse in Thailand and determine the possible uses or need for disposal,
       request and arrange for approval to dispose of the items, and notify


                                                                                    1
       appropriate personnel at the United Nations Food and Agriculture
       Organization of the need to evaluate commodities for disposal and proceed to
       dispose of any relevant items (page 17).

   •   Document an understanding with the United Nations Food and Agriculture
       Organization in Indonesia regarding the management of commodities
       (page 18).

USAID’s Avian Influenza Unit agreed with the recommendations in our draft audit report
and has implemented all five recommendations. Actions taken by management in
response to our recommendations include: deciding to close the regional distribution
center in Thailand; proposing 446 unusable items (valued at $2,325) for disposal; and
reducing the amount of warehouse space leased for a cost savings of approximately
$106,000. As a result of management’s actions, final action has been reached and all
five recommendations are closed upon issuance of this report. Management comments
are presented in their entirety in appendix II.




                                                                                 2
BACKGROUND
Avian influenza reemerged in Southeast Asia in 2003 and has since spread across Asia,
Europe, Eurasia, and Africa. Since 2003, 61 countries have reported highly pathogenic
avian influenza (H5N1 strain) in domestic poultry and wildlife. A total of 387 human
cases have been recorded in 15 different countries, 63 percent of which have been fatal.
Fears that the disease could become a global human pandemic with the potential to kill
millions have prompted a serious response on the part of the U.S. Government.

In accordance with the U.S. Government’s National Strategy for Pandemic Influenza,
USAID plays a key part in the international effort to combat avian influenza. In
December 2005, Congress appropriated $56.3 million to USAID for the prepositioning
and deployment of essential supplies and equipment to prepare for and respond to the
avian influenza virus.

In response to this mandate from Congress, USAID created a stockpile mainly
composed of personal protective equipment kits. These kits contain items such as
coveralls, respirator masks, and goggles to protect workers in outbreak clean-ups and
investigations. Decontamination kits (used in outbreak clean-ups) and laboratory
specimen collection kits (used to collect and manage specimens for detecting avian
influenza) were also stockpiled in significant numbers.

In March 2007, USAID contracted John Snow, Inc. to support avian influenza commodity
procurement and distribution under a USAID task order. John Snow, Inc. has identified
the following three objectives for this task order:

   •   Establish and operate a secure, reliable global mechanism to store, transport,
       rapidly deliver, and track in-country distribution of current and future USAID avian
       influenza international stockpile assets. This global distribution mechanism
       requires in-country distribution coordination with USAID missions, USAID
       implementing partners, host country governments, United Nations agencies,
       nongovernmental organization partners, and other Federal agencies.

   •   Establish a comprehensive management information system that can provide
       current information about all aspects of the avian influenza global distribution
       mechanism, from procurement to end use.

   •   Procure, assemble, and distribute additional assets, as needed.

USAID Global Health Bureau’s Avian and Pandemic Influenza Response Unit (Avian
Influenza Unit) has indicated that its current objectives are centered on prepositioning
commodities in order to respond to and be prepared for outbreaks. The task force is
also focused on reviewing and improving the selection of items in the commodity
stockpile.

The Avian Influenza Unit headquarters is in Washington, DC. The stockpile of goods
held domestically is located at a warehouse in Savannah, Georgia. The Avian Influenza
Unit recently opened its first regional distribution warehouse in Bangkok, Thailand.



                                                                                     3
AUDIT OBJECTIVE
As part of the fiscal year (FY) 2008 annual audit plan, the Office of Inspector General
conducted this audit to answer the following question:

   •   Has USAID properly procured, deployed, and warehoused its avian influenza
       commodities?

Appendix I includes the details of the audit’s scope and methodology.




                                                                                  4
AUDIT FINDINGS
In general, USAID properly procured, deployed, and warehoused its avian influenza
commodities at the locations tested. However, the audit noted some opportunities for
USAID to improve program operations. Some areas of concern noted in Indonesia and
Thailand were related to (1) determining the usefulness of the regional distribution
center; (2) reducing excess warehouse space; (3) disposing of unusable, expired, and
damaged commodities; and (4) obtaining a formal agreement with the United Nations
Food and Agriculture Organization in Indonesia. Despite these issues that arose during
the course of the audit, the audit noted improvements in managing the commodity
stockpile. Specifically, USAID achieved the following targets:

Procured – USAID has approved the purchase of 28 million vaccinations for avian
influenza and 14 million doses for Newcastle disease (a highly contagious bird disease
affecting many domestic and wild avian species). From February 2007 through
September 30, 2008, under John Snow, Inc. USAID Deliver Project Task Order 2 (Avian
Influenza), USAID procured approximately $1,200,000 of avian influenza commodities.
Of this amount, $247,711, or 20 percent, was for the procurement of approximately 9.8
million avian influenza and Newcastle disease vaccine doses, for distribution only in
Indonesia. The remainder of the procured commodities included vaccination equipment,
lab specimen kits, and other items as specified in its agreement with USAID. The
vaccines were distributed directly from the manufacturer to 16 districts in Indonesia and
were administered by the United Nations Food and Agriculture Organization and
Indonesian veterinary authorities on a quarterly basis. USAID properly procured these
commodities in accordance with USAID guidance. No personal protection equipment
kits were procured during this period as USAID is working to deplete its existing
stockpile.

Deployed – This audit’s testing of commodity deployment concluded that commodities
were received timely and were available when needed. Affected countries request
commodities from USAID to respond to animal and human avian influenza outbreaks.
Upon requests and further research to determine the actual country needs, USAID
deploys the commodities to a representative in the country. Generally, the commodities
are transferred to a USAID implementing partner, such as the United Nations Food and
Agriculture Organization, World Health Organization, Ministry of Health, Ministry of
Agriculture, or others as determined by USAID. The commodities are then distributed to
districts, subdistricts, and ultimately to the end users (persons using the commodities).
From March 2007 through September 30, 2008, a total of $5,561,087 in commodities
was distributed to 76 countries.

Warehoused – The audit concluded that the warehouses generally met the standards
established by USAID. In March 2007, USAID transferred responsibility for managing its
commodity stockpile from the USAID Office of Foreign Disaster Assistance to the Global
Health Bureau’s Avian and Pandemic Influenza Response Unit (Avian Influenza Unit).
The Avian Influenza Unit contracted with John Snow, Inc. to manage the commodity
stockpile, which had previously been managed by Federal Occupational Health within
the U.S. Department of Health and Human Services, under a contract with the Office of
Foreign Disaster Assistance. The commodities, under Federal Occupational Health’s
management, were stored at an Air Force base in Atlanta, Georgia. After John Snow,


                                                                                    5
Inc. assumed management of the commodities, the commodities were transferred to
Savannah, Georgia.

In March 2008, USAID also established a regional distribution center in Thailand to test
the effectiveness of a regional distribution center as a way to ensure timely and effective
responses to outbreaks in neighboring countries. John Snow, Inc. subcontracted with
Medical Assistance Programs International and United Parcel Service to manage the
warehouse facilities in Georgia and Thailand, respectively. As of October 17, 2008, the
inventory on hand in Georgia and Thailand is summarized as follows:

Table 1. Commodities Warehoused in Georgia and Thailand

                                       Georgia                          Thailand
 Item Description                 Quantity         Value            Quantity       Value
 Personal Protection               913,650    $7,994,437             40,900     $357,875
 Equipment
 Decontamination Kit                   794          $277,900             202        $70,700
 Laboratory Kit                        187          $110,422               9         $5,314
 Total                             914,631        $8,382,759          41,111       $433,889

Storage conditions generally met the standard warehouse operating procedures
approved by USAID at both warehouses. (See appendix III for the standards tested.)




Photograph of avian influenza commodities stockpiled at the UPS warehouse in Bangkok, Thailand.
Taken by an Office of Inspector General auditor on November 12, 2008.




                                                                                         6
USAID’s Avian Influenza Unit has made notable improvements in managing
commodities over the past 2 years. The following sections discuss the improvements,
as well as opportunities to improve performance management or program operations.

Improved Process for
Managing Commodities
The Avian Influenza Unit has improved its process for managing commodities under the
John Snow, Inc. task order, as noted below:

Storage Conditions – According to USAID officials, John Snow, Inc., the contractor,
replaced boxes with higher-grade cardboard boxes and stacked the commodities on
pallets that could be shipped easily. Because of the large number of boxes, this process
is still under way. Boxes that contained large amounts of empty space were replaced
with boxes of more efficient sizes. The contractor also sorted the personal protection
equipment kits so that they could be shipped by size, which was important as certain
sizes were impractical in countries where the people tend to be smaller or larger. Lastly,
the contractor tracked the commodities using a computer-based system that provided
timely inventory reports based on quantity and value of commodities.

Implementation of Inventory Data Management System – The enterprise resource
planning software application, ORION, tracked inventory from the Georgia warehouse
through delivery to the implementing partner in the recipient country. The inventory
could be accessed online by personnel from implementing partners to track delivery of
commodities. The system allowed Avian Influenza Unit personnel in Washington to
easily check the availability, location, and expiration of commodities. One important
feature of the system was the ability to track expiration dates, which allows the Avian
Influenza Unit to ship commodities that are closer to expiration first and to quarantine
expired commodities.

Supply of Commodities – The Avian Influenza Unit reassembled some avian influenza
commodity kits. For example, the original decontamination kit contained an inflatable
swimming pool to walk through while disinfecting footwear. According to Avian Influenza
Unit personnel and commodity end users, there was not usually a way to inflate the
pools, which made them useless. Furthermore, the image on the box that contains the
pool could be offensive to more conservative cultures. Users of the decontamination kits
have found alternative methods for disinfecting footwear, and the pools have been
removed from the kits (see finding later in report that deals with disposal of unusable
commodities). The kits also contained 1-gallon sprayers for dispersing disinfectant.
These were too small to be practical and were replaced with 2.5-gallon sprayers. In
addition, many of the commodities contained disinfectant wipes with an alcohol content
that was too high to be shipped by air. Each kit was opened to check for the type of
wipe, and the unallowable wipes were replaced.

Moving the commodities to the Georgia warehouse, implementing the inventory data
management system, and reviewing the contents of the commodity kits have resulted in
a more efficient and effective avian influenza commodity program.




                                                                                    7
Photograph of commodity kits being reassembled at the Medical Assistance Program warehouse in
Savannah, Georgia, a process which involved opening each kit individually and removing and
replacing items as determined by the Avian Influenza Unit at USAID. Taken by an Office of Inspector
General auditor on October 20, 2008.

Although USAID’s Avian Influenza Unit has made notable improvements in managing
the commodity stockpile, opportunities exist to improve performance management or
program operations related to (1) determining the usefulness of the regional distribution
center; (2) reducing excess warehouse space; (3) disposing of unusable, expired, and
damaged commodities; and (4) documenting an understanding with the United Nations
Food and Agriculture Organization in Indonesia.

USAID Needs to Determine the
Usefulness of the Regional Distribution Center

  Summary: United States law and USAID policies require effective and efficient use
  of resources. USAID has not had to use the regional distribution center in Thailand
  (as of December 31, 2008). According to USAID, since the opening of the
  distribution center, other donors have contributed to the region’s supply of avian
  influenza commodities, and the need for the commodities has changed as the virus
  appears to be changing over time. Without a careful analysis of the current
  environment to determine the needs and demands for the commodities, USAID’s
  avian influenza efforts will not be as effective and efficient as they could be.

According to the Foreign Assistance Act of 1961 (Public Law 87-195, as amended),
Congress requires that development concerns be fully reflected in U.S. foreign policy
and that U.S. development resources be effectively and efficiently utilized. Also,


                                                                                             8
according to the President’s Emergency Plan for AIDS Relief 5-year strategy, the goal of
the U.S. Government is to “encourage partners, including multilateral organizations and
other host governments, to coordinate at all levels to strengthen response efforts, to
embrace best practices, to adhere to principles of sound management, and to harmonize
monitoring and evaluation efforts to ensure the most effective and efficient use of
resources.” In addition, USAID’s Automated Directives System (ADS) 596.2k stipulates
that managers ensure the quality and timeliness of program performance and that
programs are managed with integrity and in compliance with applicable law.

In March 2008, USAID established a regional distribution center in Thailand for the
stockpile of avian influenza commodities, including personal protective equipment,
decontamination kits, laboratory specimen collections kits, and training packs. The
center was established to evaluate the cost-effectiveness of a regional distribution center
to meet routine and emergency needs for surveillance and rapid response teams and
outbreak investigation efforts, and to resupply the countries in the region with
commodities. The center was also established to determine whether a forward
deployment of key commodities would better enable quicker reaction to emergency
animal and human outbreaks within 24 hours following a reported outbreak.

According to a cost comparison (based on estimated costs) for shipping rates for
shipments originating from the regional distribution center and Georgia warehouse for
selected locations in Asia conducted by the Avian Influenza Unit below, the shipping
costs were approximately 15 percent to 490 percent higher for emergency shipments
and 15 percent to 199 percent higher for nonemergency shipments from the United
States. Also, the response time for emergency shipments was approximately 1–2 days
slower from the United States. According to an official from the Avian Influenza Unit,
although this assessment does not take the sea freight and storage costs into account,
the savings are significant, particularly for emergencies. The variable of response time
cannot be attributed a monetary value, but is much more important than cost.

Table 2. Regional Distribution Center and Georgia Warehouse Cost Comparison

                    Emergency Shipments                    Nonemergency Shipments
             Shipping Cost Response Time (Days)         Shipping Cost  Response Time
                 From              From                     From         (Days) From
Ship To:     Regional Savannah   Regional   Savannah   Regional   Savannah   Regional   Savannah
              Center              Center                Center                Center
Bangladesh   $1.55     $9.20      1 to 5     3 to 7     $1.22      $3.42      3 to 7    10 to 14
Burma        $1.09     $2.76      1 to 5     3 to 7     $0.90      $1.65      3 to 7    10 to 14
China        $1.21     $1.61      1 to 5     3 to 7     $1.21      $1.39      3 to 7    10 to 14
India        $1.55     $4.03      1 to 5     3 to 7     $1.41      $1.75      3 to 7    10 to 14
Indonesia    $1.55     $9.20      1 to 5     3 to 7     $1.22      $3.42      3 to 7    10 to 14
Mongolia     $6.00     $6.90      1 to 5     3 to 7     $2.24      $3.36      3 to 7    10 to 14
Vietnam      $1.55     $3.68      1 to 5     3 to 7     $0.91      $1.98      3 to 7    10 to 14

However, despite advantages of the regional distribution center, since its establishment
in March 2008, only one test shipment of 4,500 personal protection equipment kits was
deployed from there. Also, from March through December 31, 2008, four shipments to
Asia were deployed from Georgia instead of the regional distribution center. According
to the Avian Influenza Unit, the shipments were deployed from Georgia because it was


                                                                                           9
deemed to be more cost effective, considering the efforts to restock the regional
distribution center.

According to officials from the Avian Influenza Unit, the regional distribution center was
established to test the regional distribution concept to determine if such a model would
provide a viable, cost-effective solution. The intent of the regional distribution center
was to respond to emergency outbreaks or stockouts of commodities. The regional
distribution center was established at a time when Southeast Asia significantly needed
commodities on an emergency basis. However, since that time, other donors have
contributed to the supply of avian influenza commodities available in the region, thereby
making the supply of commodities more abundant.

Based on the changing environment of the virus and the uncertain level of demand for
the commodities in the region, USAID should evaluate the usefulness of the regional
distribution center. USAID has established a set of shipping procedures based on cost
comparisons designed to ensure that shipments are made from the appropriate source
(Georgia or Thailand). This process is critical and should continue in order to determine
the most cost-effective method of shipping. Using this information, USAID will be able to
determine if the regional distribution model will serve the purpose for which it was
intended. Without a careful analysis of the current environment to determine the needs
and demands for the commodities, USAID avian influenza efforts will not be as effective
as they could be. Therefore, this audit makes the following recommendation:

   Recommendation No. 1: We recommend that USAID’s Bureau for Global
   Health’s Avian and Pandemic Influenza Management and Response Unit
   conduct an assessment (within 6 months) of the usefulness of the regional
   distribution center in Thailand and determine what future actions to take as a
   result of the assessment.

Warehouse Space Could Be
Managed More Efficiently

  Summary: According to the Foreign Assistance Act of 1961, resources should be
  effectively and efficiently utilized. Also, according to USAID guidance, managers
  should implement appropriate, cost-effective controls to reasonably ensure that
  assets are safeguarded against waste. The warehouse in Georgia had excess
  space, and the stored commodities were not arranged to allow efficient warehouse
  management in both the Georgia and Indonesia warehouses. Warehouse
  managers did not see the need to reduce the space, as this was not their
  responsibility. Orderly storage of the commodities could result in improved
  efficiencies; furthermore, the reduced leased space would result in savings of
  approximately $91,000 per year.

According to the Foreign Assistance Act of 1961 (Public Law 87-195, as amended), at
22 USC 2151(a), “The Congress declares that pursuit of these goals requires that
development concerns be fully reflected in United States foreign policy and that United
States development resources be effectively and efficiently utilized.” Also, ADS 596.3.1,
“Establishing Internal Controls,” requires USAID managers to implement appropriate,
cost-effective controls to reasonably ensure that assets are safeguarded against waste.


                                                                                   10
In addition, according to the storage guidelines for storage of health commodities
established by John Snow, Inc. in collaboration with the World Health Organization,
aisles should be clear, expired and damaged goods should be separated from usable
stock, and goods should be arranged to facilitate the first-to-expire, first-out policy.

During site visits, the audit team noted that the warehouse in Georgia had excess space,
and the stored commodities were not arranged to allow efficient warehouse
management. In addition, there were some concerns about the arrangement of
commodities in the United Nations Food and Agriculture Organization’s warehouse in
Indonesia, as noted below.

Excess leased space – The warehouse in Georgia had excess leased space that cost
approximately $91,000 per year. John Snow, Inc. leased 61,500 square feet of storage
space in Georgia to house the original quantity of commodities. The warehouse space
is divided into two sections, including one enclosed air-conditioned room to store
climate-sensitive commodities. However, during a visit to the warehouse, the audit team
noted that the commodities were stored sparingly in the two sections. Large areas were
unused, and boxes were stacked low, thereby not optimizing the height of the
warehouse. In addition, the enclosed air-conditioned room did not store any climate-
sensitive commodities, except for expired antigen kits that were to be used for training
purposes. Instead, the space was used to store miscellaneous empty boxes and
packing supplies.

According to the Avian Influenza Unit officials, the original space requirements were
based on calculations of stock acquired in March 2007. Since then, 500,000 personal
protection equipment kits have been shipped from the warehouse. This is a dynamic
operational environment and warehouse space requirements will change over time
depending on shipment and procurement actions. However, the warehouse manager
and USAID personnel agreed that the space was extraneous and a review of the lease
was warranted to determine if USAID could reduce one section of the warehouse,
thereby reducing approximately one-third of the leased space. The reduction in the
leased space will provide cost savings on rental expenses, taxes, insurance, and
utilities. Below is an approximate estimate of the cost savings:

Table 3. Calculation of Leased Space Savings

         Description              Annual Warehouse           Potential Warehouse
                                      Expense                      Savings
 61,500 sq. ft. leased space                $224,000                        $74,667
 Common area maintenance                     $30,750                        $10,250
 Utilities                                   $17,000                         $5,667
 Total                                      $271,750                        $90,584

According to the warehouse manager, the space was used sparingly because it was
available. Because he was not aware of whether anyone at John Snow, Inc. or USAID
had questioned the excess space, he continued to use all the space that was available.
Also, if the commodities were arranged more efficiently (stacking the boxes higher and
disposing of unused, expired, and damaged commodities, as discussed later in the
report), additional leased space could be reduced, if this is possible under the terms and
conditions of the lease.



                                                                                   11
Photograph depicting one example of the excess space available in the warehouse in Savannah, GA.
A large amount of floor space is vacant and commodities are not stacked as high as they could be
stacked. Taken by an Office of Inspector General auditor on October 20, 2008,




Photograph of the air-conditioned room at the warehouse in Savannah, GA, holding only a few
items. Taken by an Office of Inspector General auditor on October 20, 2008,

Arrangement of Commodities – During site visits to the warehouses in Georgia and
Indonesia, the audit team noted that stored commodities were not arranged to allow
efficient warehouse management. In Georgia, items that were quarantined (to be


                                                                                         12
disposed of) were located in the same area as items that were in good condition and
ready to be shipped. For example, containers of expired Virkon—a disinfectant used to
clean poultry cages and other potentially contaminated areas—were located next to the
unexpired Virkon. Other items, such as RelyOn brand disinfectants and other various
items to be disposed of, were located in several different areas throughout the
warehouse.

According to the warehouse manager, since the staff was aware of the quarantined
items, there was no need to completely separate them and store them in a centralized
location.

In Indonesia, the audit team noted that items to be disposed of were located in the same
areas as items in good condition and ready to be shipped, and USAID items were stored
with non-USAID commodities. In addition, there were no clear aisles, and the
commodities were not arranged to allow for easy access. Because there was limited
access to the older inventory (specifically, the personal protection equipment) located in
back, newer inventory was stored in front and was also being shipped out first, leaving
the older commodities untouched.




Photograph of older commodities in the back rows at the United Nations Food and Agriculture
Organization warehouse in Jakarta, Indonesia, collecting dust for long periods of time without being
shipped. Taken by an Office of Inspector General auditor on November 19, 2008.




                                                                                            13
Photograph of commodities at the United Nations Food and Agriculture Organization warehouse in
Jakarta, Indonesia. The absence of aisles in the arrangement of commodities restricts access to the
stockpile. Taken by an Office of Inspector General auditor on November 19, 2008.

According to the warehouse manager, since the personal protection equipment did not
have an expiration date, he did not see the need to use the older inventory. However,
even though the personal protection equipment does not have an expiration date, it is
good management practice to use the first-in/first-out inventory system. Orderly storage of
the commodities could result in better quality and efficacy. It should be noted that the
warehouse in Indonesia is under the control of United Nations Food and Agriculture
Organization and not USAID. Therefore, this audit makes the following recommendations:

    Recommendation No. 2: We recommend that USAID’s Bureau for Global
    Health’s Avian and Pandemic Influenza Management and Response Unit
    (a) establish a procedure to review warehouse space requirements and
    document the justification for the space and capability requirements; (b) review
    the flexibility under the current lease agreement to renegotiate warehouse space
    and consider options for alternate warehousing to realize savings of
    approximately $91,000; (c) identify and isolate unusable, expired, or damaged
    commodities; and (d) stack commodities as efficiently as possible to fully use the
    space available.

    Recommendation No. 3: We recommend that USAID’s Bureau for Global
    Health’s Avian and Pandemic Influenza Management and Response Unit submit
    to the United Nations Food and Agriculture Organization recommendations to
    properly manage the inventory of commodities.




                                                                                            14
USAID Should Dispose of Unusable,
Expired, and Damaged Commodities

 Summary: The Foreign Assistance Act (as amended Public Law 87-195), USAID
 policy, and the John Snow, Inc. task order set standards for U.S.-financed commodities
 to reasonably ensure that assets are safeguarded against waste. In the Thailand and
 Indonesia warehouses, several unusable, expired, and damaged commodities had
 been stored for up to 15 months. USAID officials had not taken action on the stored
 items because they were waiting on the approval for the disposition of other goods in
 Georgia. Without the timely disposal of the unusable, expired, and damaged
 commodities, USAID is incurring unnecessary and avoidable storage costs.

The Foreign Assistance Act (Public Law 87-195, as amended), at 22 USC 2151(a),
USAID policy, and the John Snow, Inc. task order set standards for U.S.-financed
commodities to reasonably ensure that assets are safeguarded against waste. For
example, according to the Foreign Assistance Act of 1961, “The Congress declares that
pursuit of these goals requires that development concerns be fully reflected in United
States foreign policy and that United States development resources be effectively and
efficiently utilized.” Also, 596.3.1, “Establishing Internal Controls,” requires USAID
managers to implement appropriate, cost-effective controls to reasonably ensure that
assets are safeguarded against waste. In addition, according to the John Snow, Inc.
task order, the contractor was to ensure the “proper disposal of expiring or damaged
items in the existing stockpile.”

Several unusable, expired, and damaged commodities had been stored for up to
15 months awaiting disposal. Only items noted at the Georgia warehouse have been
addressed. A summary of the items found are listed below:

Georgia Warehouse

On August 1, 2008, the Avian Influenza Unit requested the Office of Acquisition and
Assistance’s approval for the disposal of a number of unusable, expired, and damaged
items currently warehoused in Georgia. Items requested for disposal included expired
disinfectants, unusable children’s inflatable pools, respirator fit test kits, and other
damaged commodities, and have a cost of approximately $2.3 million. On December 1,
approval was granted for the disposal of the items; therefore, this report does not make
a recommendation related to these items held in Georgia.

Thailand Warehouse

Unusable, expired, and damaged items that cost approximately $6,500 have not been
addressed by USAID. The regional distribution center for avian influenza commodities in
Thailand was established in March 2008. Shortly before this, in January 2008, the
Centers for Disease Control and Prevention (CDC) and USAID agreed to transfer the
custody of existing CDC commodities to USAID to manage on behalf of CDC. As
summarized below, some of the items transferred to USAID were determined to be
unusable, expired, or damaged (the list also includes some existing USAID items):




                                                                                  15
   •   500 respirators (donated by CDC)
   •   71 items of personal protection equipment (donated by CDC)
   •   8 rubber gloves (from CDC)
   •   4 laboratory specimen kits (USAID)
   •   420 ice packs (USAID)
   •   12 cold compresses (USAID)
   •   10 (5-kilogram) pails of Virkon (USAID)

Indonesia Warehouse

Unusable, expired, and damaged commodities that cost approximately $49,000 have not
been addressed by USAID. (This amount does not include the value of 750 boxes of
Bitrex, a chemical used in the respirator test kits, for which the dollar value is unknown.)
Indonesia has had the world’s largest number of confirmed human infections (137 cases
as of September 10, 2008) and is uniquely vulnerable to the threat of ongoing outbreaks
and the emergence of a pandemic strain because of its high human population and
poultry densities. Therefore, Indonesia has received the largest amount of commodities
in the world to combat the disease. The commodities are donated to the United Nations
Food and Agriculture Organization, which manages the warehousing facilities. During
the site visit to the warehouse, the audit team noted the following:

   •   750 boxes of Bitrex, stored since July 2007, have not been used.

   •   288 respirator test fit kits, stored since August 2007, have not been used. (The
       kits were too complicated for the end users to assemble.)

   •   3 decontamination kits, stored since July 2007, have not been used. According
       to the warehouse manager, the sanitary cloth wipes included in the
       decontamination kits were damaged and could not be used. However, the kits
       contained several other items, including brushes, gloves, and plastic containers.
       The cloths were the only items that could not be used, but the entire box has
       been left untouched with no plans for reinspection or disposal.

According to the warehouse manager, the items have been stored for 15 months without
any instruction for disposition or otherwise from either CDC or USAID officials.
According to USAID officials, they were waiting on the approval from the Office of
Acquisition and Assistance for the disposal in Georgia before making plans for these
commodities. It should also be noted that the control of commodities in Indonesia has
been turned over to the United Nations Food and Agriculture Organization and any
subsequent disposal is the responsibility of this organization. Without the timely disposal
of unusable, expired, or damaged commodities, USAID and its implementing partners
are incurring unnecessary and avoidable storage costs. Therefore, this audit makes the
following recommendation:




                                                                                     16
   Recommendation No. 4: We recommend that USAID’s Bureau for Global Health’s
   Avian and Pandemic Influenza Management and Response Unit in conjunction
   with its implementing partners (a) review the items that have been stored at the
   warehouse in Thailand and determine the possible uses or need for disposal, (b)
   request approval to dispose of the items, and (c) notify appropriate personnel at
   the United Nations Food and Agriculture Organization of the need to evaluate
   commodities for disposal and proceed with the disposal of any relevant items.


USAID Should Document Understanding
with the United Nations Food and Agriculture
Organization in Indonesia

 Summary: U.S. Government regulations and USAID policy state that management
 controls should include appropriate documentation of transactions. However, USAID
 and its implementing partners have not documented their understanding of roles and
 responsibilities for maintaining, storing, and distributing commodities at the country
 level. USAID officials stated that documentation of this understanding had not taken
 place because they thought that the umbrella grant was sufficient in documenting the
 understanding between the two parties. Without a documented understanding,
 USAID cannot be assured that the purpose, rights and responsibilities, or
 expectations of this transaction will be fully understood or executed.

U.S. Government regulations contained in Office of Management and Budget Circular
A-123, Management’s Responsibility for Internal Control, defines management’s control
activities, which include policies, procedures, and mechanisms in place to help ensure
that agency objectives are met. One example of a procedure is to have appropriate
documentation and access to that documentation. The circular states, “Agency
management should determine the appropriate level of documentation needed to
support this assessment.” In addition, USAID’s ADS 596, Management Accountability
and Control, requires its managers to employ management controls to appropriately
document transactions and safeguard assets.

According to officials from the Avian Influenza Unit, avian influenza commodities are
received by implementing partners in recipient countries. The implementing partners are
determined by USAID and could be any one of the following: United Nations Food and
Agriculture Organization, World Health Organization, Ministry of Health, Ministry of
Agriculture, a nongovernmental organization, or others.          In many cases, the
implementing partner accepts the donated commodities and maintains a small stockpile
that will be distributed to districts and subdistricts to respond to emergency and
nonemergency outbreaks. Upon receipt of the donated goods, both parties sign a
receiving report to document the transfer of ownership; however, no document describes
the maintenance, storage, and distribution of the commodities.

In June 2006, USAID developed an umbrella Public International Organization grant with
the United Nations Food and Agriculture Organization to provide support to at-risk
countries for USAID’s global avian influenza control and eradication program. As a part
of this agreement, the United Nations Food and Agriculture Organization provides a
number of key countries with assistance in planning, surveillance, and response


                                                                                  17
activities. The agreement, however, does not include any definition of the roles and
responsibilities of this organization regarding the commodities in the USAID stockpile
when the United Nations Food and Agriculture Organization is the designated
implementing partner for commodity management. For example, there was an
understanding in Indonesia that USAID commodities in Indonesia were to be managed
by the United Nations Food and Agriculture Organization. This included management of
the commodities at the warehouse, in-country freight forwarding logistics, and status
reports of the commodities. However, USAID did not have a documented understanding
with the United Nations Food and Agriculture Organization regarding this organization’s
specific responsibilities for these functions.

USAID/Indonesia staff did not document the understanding because the relationship was
already working well and they did not see a need for a written agreement. Also, some
USAID officials understood that what was covered in the umbrella grant was sufficient.
However, as a prudent management control to ensure accountability of government
resources, USAID should establish a formal agreement that documents the
understanding between the two parties for the oversight and management of the
commodities. Furthermore, depending on the language used, an agreement might free
USAID of any warranty about the condition or serviceability of the materials, and claims
and damages arising from the use of the materials. Also, this agreement can specify
USAID conditions and standard provisions that should be followed. In addition, this
agreement can clearly define the expectations for a written report from the implementing
partner to provide to USAID a detailed report on the amount of the commodities that has
been used, as well as how and in what specific instances the commodities were used.

Given the emergency nature of USAID’s avian and pandemic influenza program, it is not
practical to expect such documentation for each country given that commodity response
needs to be timely in order to be effective. The uniqueness of the program in Indonesia,
however, makes it possible to have a documented understanding with the implementing
partner. As opposed to other countries, where USAID faces challenges with the
bureaucracies of national ministries of health and agriculture, a documented
understanding with the United Nations Food and Agriculture Organization in Indonesia can
be accomplished expediently. Furthermore, a documented understanding is important
since the United Nations Food and Agriculture Organization receives the largest amount of
commodities and is dealing with the most avian influenza outbreaks. Without a
documented understanding, USAID cannot be assured that the purpose, rights and
responsibilities, or expectations of the transaction will be fully understood or executed.

   Recommendation No. 5: We recommend that USAID’s Bureau for Global
   Health’s Avian and Pandemic Influenza Management and Response Unit
   establish a document of understanding with the United Nations Food and
   Agriculture Organization in Indonesia regarding the management of commodities.




                                                                                   18
EVALUATION OF
MANAGEMENT COMMENTS
USAID’s Bureau for Global Health’s Avian and Pandemic Influenza Management and
Response Unit (Avian Influenza Unit) agreed with the recommendations in the draft audit
report and has implemented all five recommendations, as described below:

   •   In response to recommendation no. 1, the Avian Influenza Unit conducted a cost
       and usefulness assessment for the regional distribution center in Thailand. This
       assessment revealed the questionable cost effectiveness and necessity of
       maintaining the regional distribution center. The Avian Influenza Unit has since
       determined to close the regional distribution center in May 2009, unless other
       circumstances arise that would dictate a change in this decision.

   •   In response to recommendation no. 2, the Avian Influenza Unit reviewed
       warehousing requirements, available leasing options, and commodity storage
       methods. Based on the findings from these reviews, the Avian Influenza Unit
       identified alternative options for warehousing and commodity storage that
       reduced space requirements, resulting in approximately $106,000 in cost
       savings.

   •   In response to recommendations no. 3 and no. 5, the Avian Influenza Unit
       developed a Document of Understanding and provided the United Nations Food
       and Agriculture Organization in Indonesia with reference materials,
       recommendations, and guidance on the proper storage and maintenance of
       avian influenza commodities. This information supports and enhances the
       United Nations Food and Agriculture Organization in Indonesia’s current capacity
       to manage USAID provided avian influenza commodities.

   •   In response to recommendation no. 4, the Avian Influenza Unit conducted a
       review of the quarantined items in the regional distribution center in Thailand,
       consulted with CDC in Thailand to identify items for use, salvage, or disposal,
       and requested approval from the Office of Acquisition and Assistance for the
       disposal of identified commodities. Subsequent to providing its response on the
       draft audit report, management supplied additional documentation on the items
       proposed for disposal at the regional distribution center in Thailand. This
       documentation indicated 446 items proposed for disposal, amounting to $2,325
       in unusable commodities. Furthermore, the Avian Influenza Unit developed a
       Document of Understanding and notified appropriate personnel at the United
       Nations Food and Agriculture Organization in Indonesia regarding the need to
       evaluate and dispose of damaged or expired products.

Accordingly, final action has been reached and all five recommendations are closed
upon issuance of this report. Management comments in their entirety are presented in
appendix II.




                                                                                19
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General’s Performance Audits Division conducted this audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. This audit was designed to
determine whether USAID properly procured, deployed, and warehoused its avian
influenza commodities.

In planning and performing the audit, we assessed the effectiveness of internal controls
related to the procurement, storage, and distribution of avian influenza commodities.
These controls included complying with USAID procurement policies, providing
adequate storage conditions, and ensuring timely distribution of commodities. We also
reviewed the Bureau for Global Health’s Federal Managers’ Financial Integrity Act report
for FY 2007.

To manage and oversee the procurement, storage, and distribution of the avian
influenza commodities, USAID contracted John Snow, Inc. The audit covered the period
from the start of contract with John Snow, Inc. on March 21, 2007, through the end of
site visits on November 21, 2008. As of September 30, 2008, John Snow, Inc. had
procured a total of approximately $1.2 million and had distributed commodities valued at
$5,561,087.

Methodology
To answer the audit objective, we interviewed officials from the avian influenza unit in
Washington, DC; John Snow, Inc. officials and staff in Washington, DC; Medical
Assistance Program (John Snow, Inc.’s subcontractor, which manages the warehouse
facilities in Savannah, Georgia) staff; and the Office of Foreign Disaster Assistance to
understand the processes by which commodities were procured, deployed, and used in
the field. We then evaluated management controls and inspected relevant documents
pertaining to the purchase and shipment of the commodities.

During our field work in Thailand and Indonesia, we interviewed mission staff, United
Parcel Service (John Snow, Inc.’s subcontractor, which manages the warehouse
facilities in Bangkok, Thailand) staff, officials from the United Nations Food and
Agriculture Organization, and other selected end users of the commodities to determine
the nature and extent of the missions’ avian influenza activities. We also reviewed
relevant documentation, such as agreements, work plans, inventory records, financial
records, partners’ periodic reports, and other records showing actions taken by the
mission and partners to manage avian influenza commodities.




                                                                                 20
                                                                        APPENDIX I


We conducted the following site visits:

   •   Medical Assistance Program warehouse, Savannah, Georgia (October 20,
       2008): We observed storage conditions, conducted test counts of selected
       commodities, reviewed inventory records, and interviewed responsible staff.

   •   Regional distribution center, Bangkok, Thailand (November 11, 2008): We
       observed storage conditions, conducted test counts of selected commodities,
       reviewed inventory records, and interviewed responsible staff.

   •   International Rescue Committee office and Tham Hin refugee camp, Ratchaburi,
       Thailand (November 13, 2008): We observed inventory storage conditions and
       interviewed commodity end users as well as implementing partners.

   •   District-level storage facility, Temanggung, Indonesia (November 18, 2008): We
       observed the district-level storage of vaccines, conducted test counts of the
       vaccine inventory, and interviewed users of the vaccines as well as users of
       other avian influenza commodities, including personal protective equipment and
       decontamination kits.

   •   District-level storage facility, Kuningan, Indonesia (November 20, 2008): We
       observed the district-level storage of vaccines, conducted test counts of the
       vaccine inventory, and interviewed users of the vaccines as well as users of
       other avian influenza commodities, including personal protective equipment and
       decontamination kits.




                                                                               21
                                                                           APPENDIX II




MANAGEMENT COMMENTS
                                                                    April 16, 2009

MEMORANDUM



TO:           IG/A/PA, Steven H. Bernstein, Director

FROM:         GH/HIDN/AI, Dennis Carroll, Director /s/

SUBJECT:      Management Comments on the Audit of USAID’s Avian Influenza Efforts
              (Report no. 9-000-09-XXX-P)

This memorandum transmits the Bureau for Global Health, Office of Health, Infectious
Diseases and Nutrition, Avian and Pandemic Influenza Management and Response
Unit’s (API Unit) response to the draft audit report titled “Audit of USAID’s Commodities
for Avian Influenza Efforts” audit report no. 9-000-09-XXX-P, dated April, 2009.

Background

In response to the threat of a global influenza pandemic, USAID, in 2005, initiated a
comprehensive influenza prevention and response initiative. A major component of that
program was the provision of specific commodities that were designed to allow countries
to respond to an outbreak of avian influenza and protect the individuals that were
engaged in that response. In 2006, the US Congress appropriated approximately $56.3
million to the Office of Foreign Disaster Assistance (OFDA) for the procurement and
distribution of those commodities. In late 2007, OFDA transferred responsibility for the
commodities and the remaining funding to the Bureau for Global Health. In 2008, the
Bureau for Global Health awarded a contract to John Snow, Inc. to assume responsibility
for management of all avian and pandemic influenza commodities. The contract GPO-I-
00-06-00007-00 Task Order 2, is commonly known as the USAID | DELIVER PROJECT
(Task Order 2 Avian Influenza). To date this project has completed over 200 critical
shipments to approximately 80 countries on behalf of USAID.

In May 2008, the Office of the Inspector General initiated an audit of the USAID avian
influenza commodity activities. The draft report to that audit was completed and
transmitted to the Bureau for Global Health for comment on March 18, 2009. The Avian
and Pandemic Influenza Management and Response Unit found the audit to be very
professional and extremely useful. The API Unit wishes to thank the auditors for their
hard work and persistent efforts to improve the API commodity program. The comments
below represent the Bureau for Global Health’s response to the audit report.




                                                                                     22
General comments

The USAID API Unit appreciates the recommendations made by the Inspector General
and has worked to address the recommendations in an efficient and effective manner.

Recommendation No. 1: We recommend that USAID’s Bureau for Global Health’s
Avian and Pandemic Influenza Management and Response Unit conduct an assessment
(within six months) of the usefulness of the regional distribution center in Thailand and
determine what future actions to take as a result of the assessment.

Actions:

In response to Recommendation No. 1, the USAID API Unit appreciates the comments
by the Inspector General. The Regional Distribution Center (RDC) was established at a
time when the perceived need for avian influenza control commodities in this region was
very high. It was determined at that time that the RDC would be a cost effective
alternative to shipping commodities from the Global Warehouse in Savannah, Georgia.
However, that assumption was not proven and so the RDC was set up on a test basis in
order to determine its utility and its cost saving capacity. Since the RDC was
established at the end of the flu season of 2008, it was realized that its effectiveness
could only be determined if the RDC was allowed to function over a full year. During the
period when the RDC was operational several new issues came to the API Unit’s
awareness;

   •   The demand for emergency commodity deliveries in the region served by the
       RDC was not as high as was first estimated.
   •   Other donors, namely the Japanese, came into the region with significant
       donations of funding for avian influenza commodities that relieved the burden on
       USAID.
   •   The Government of Thailand was destabilized and open access to the airport
       could not be guaranteed.

Even though there is a significant savings in the cost of shipping commodities from
Thailand as opposed to Georgia, these other factors have made the necessity of
maintaining the RDC questionable. To date, only one emergency shipment (January
2009) has been made from the RDC and the savings in time for that shipment was not
critical. Therefore, it is the determination of the API Unit to close the RDC in May of
2009, unless circumstances arise that would dictate a change in this decision.

The API Unit appreciates the comments by the IG regarding this matter and welcomes
this level of scrutiny.     Based on the assessment conducted, and the above
determination, the API Unit is requesting closure of Recommendation No. 1.

Documentation Attached:

   •   Annex 1.1:     Assessment: Usefulness of USAID Regional Distribution Center in
                      Thailand

Recommendation No. 2: We recommend that USAID’s Bureau for Global Health’s
Avian and Pandemic Influenza Management and Response Unit (a) establish a



                                                                                  23
                                                                          APPENDIX II


procedure to review warehouse space requirements and document the justification for
the space and capability requirements, and (b) review the flexibility under the current
lease agreement to renegotiate warehouse space and consider options for alternate
warehousing to realize savings of approximately $97,000, (c) identify and isolate
unusable, expired, or damaged commodities, and (d) stack commodities as efficiently as
possible making full use of the space available.

Actions:

In response to recommendation No. 2, in January, 2009 the USAID API Unit conducted a
review of warehouse operations that analyzed future space and capability requirements,
available warehousing options, and procedures for arrangement of inventory. This
included establishing a procedure for reviewing current and future warehouse space and
capability requirements, reviewing the existing warehouse lease and alternate
warehousing options, identifying and isolating unusable, expired or damaged
commodities, and ensuring that commodities are stored as efficiently as possible.

Based on this review, the USAID API Unit has defined future storage requirements and
determined that the remaining stockpile commodities can be stored within a smaller
warehouse space of approximately 40,000 sq ft. An option to access additional adjoining
warehouse space is desirable to accommodate any unforeseen expansions to the
stockpile in the future. The USAID | DELIVER PROJECT explored alternative
warehousing options and ultimately renegotiated the terms of the current lease to reduce
the rented space and ensure access to contingency space according to USAID API Unit
requirements. The cost savings for this reduction in space is approximately $106,000.

Within this reduced warehouse space, unusable, expired or damaged commodities have
been isolated and commodities are arranged as efficiently as possible making full use of
the space available.

Based on the above actions, and attached annexes, the API Unit is requesting closure of
Recommendation No. 2.

Documentation Attached:

   •   Annex 2.1:   Procedure established to review warehouse space requirements;
                    justifications documented
   •   Annex 2.2:   Review of alternative warehouse options in the Savannah area
                    and of the flexibility under the current lease agreement to
                    renegotiate warehouse space
   •   Annex 2.2.1: Alternate Warehousing Cost Comparison
   •   Annex 2.2.2: Revised Lease Agreement
   •   Annex 2.3:   Unusable, expired or damaged commodities isolated
   •   Annex 2.4:   Commodities stacked as efficiently as possible

Recommendation No. 3: We recommend that USAID's Bureau for Global Health's
Avian and Pandemic Influenza Management and Response Unit, submit to the United
Nations Food and Agriculture Organization, recommendations to properly manage the
inventory of commodities.




                                                                                 24
                                                                          APPENDIX II


Actions:

In response to Recommendations No.3 and No. 5, the USAID API Unit developed a
Document of Understanding and provided FAO/Indonesia with reference materials on
the proper storage and maintenance of AI commodities in order to support and enhance
FAO/Indonesia’s management of the USAID provided AI commodities. This information
provides recommendations and guidance on appropriate warehouse configuration and
commodity arrangement, lot identification and management procedures, and first-in/first-
out inventory management procedures (first-to-expire/first-out in cases of product with
expiry). These reference materials provide guidance that enables FAO/Indonesia to
strengthen their current capacity to properly manage the AI commodities.

Based on the attached Document of Understanding, the API Unit is requesting closure of
Recommendation No. 3.

Documentation Attached:

   •   Annex 3.1:    Document of Understanding and Reference materials on proper
                     warehouse and inventory management practices provided to
                     FAO/Indonesia

Recommendation No. 4: We recommend that USAID’s Bureau for Global Health’s
Avian and Pandemic Influenza Management and Response Unit in conjunction with its
implementing partners (a) review the items that have been quarantined at the
warehouse in Thailand and determine the possible uses or need for disposal, (b) request
approval to dispose of the items, and (c) notify appropriate personnel at the United
Nations Food and Agriculture Organization of the need to evaluate commodities for
disposal and proceed with the disposal of any relevant items.

Actions:

In response to Recommendation No. 4, in February, 2009 the USAID API Unit
conducted a review of the quarantined items in the Regional Distribution Center in
Bangkok, Thailand, identifying the items for disposal. This review included consultation
with CDC/Thailand to identify products that may be salvaged and utilized for training
purposes. The API Unit has prepared a submission to the Office of Acquisition and
Assistance to request approval for this disposal action. In response to Recommendation
No. 4(c), the USAID API Unit developed a Document of Understanding and notified
appropriate personnel at the UN/FAO in Indonesia regarding the need to evaluate
commodities for disposal and to proceed with the disposal of any relevant items without
delay (please see Annex 3.1). The notification and instructions to dispose of damaged
or expired products without delay can be found in Annex 4.1 of this report.

Based on the above actions, and attached documentation, the API Unit is requesting
closure of Recommendation No. 4.

Documentation Attached:

   •   Annex 4.1:    USAID | DELIVER PROJECT Letter to the Office of Acquisition
                     and Assistance: Request for Approval for Disposal Action



                                                                                 25
                                                                         APPENDIX II


Recommendation No. 5: We recommend that USAID’s Bureau for Global Health’s
Avian and Pandemic Influenza Management and Response Unit establish a document of
understanding with the United Nations Food and Agriculture Organization in Indonesia
regarding the management of commodities.

Actions:

In response to Recommendation No. 5, the USAID API Unit developed a written
document of understanding with FAO Indonesia regarding the proper management of
USAID donated commodities in Indonesia. This document of understanding highlights
the need for FAO/Indonesia to follow internationally accepted best practices in
commodity and inventory management. Reference materials on the proper storage and
maintenance of AI commodities were included with the Document of Understanding in
order to provide recommendations and guidance on appropriate management of USAID
donated AI commodities.

Based on the attached Document of Understanding, the API Unit is requesting closure of
Recommendation No. 5.

Documentation Attached:

   •   Annex 5.1:    Document of Understanding prepared between
                     USAID/Washington and FAO/Indonesia




                                                                               26
                                                                            APPENDIX III



WAREHOUSING STANDARDS
The standards below were adapted from the document Guidelines for the Storage of
Essential Medicines and Other Health Commodities. This document was produced by
John Snow, Inc. in collaboration with the World Health Organization, United Nations
International Children’s Emergency Fund, and USAID. These standards were used to
evaluate warehousing conditions at the Medical Assistance Program warehouse in
Savannah, Georgia; the United Parcel Service warehouse in Bangkok, Thailand; and the
United Nations Food and Agriculture Organization warehouse in Jakarta, Indonesia.

                                      Description
Storage area is secured with a lock and key, but is accessible during normal working
hours; access is limited to authorized personnel.
Products that are ready for distribution are arranged so that identification labels and
expiry dates and/or manufacturing dates are visible.
Labeling – make sure products are labeled with the date of manufacture or expiration,
lot number, and manufacturer's name.
Items are stored according to instructions on carton.
Products are stored and organized in a manner accessible for first-to-expire/first-out
counting, and general management.
Storeroom is maintained in good condition (clean; all trash removed; sturdy shelves;
organized boxes; no insecticides, chemicals, old files, etc.).
The current space and organization is sufficient for existing products and reasonable
expansion (i.e., receipt of expected product deliveries for foreseeable future).
Cartons and products are in good condition, not crushed due to mishandling. If cartons
are open, determine if products are wet or cracked due to heat/radiation.
The facility makes it a practice to separate damaged and/or expired products from
usable products and removes them from inventory.
Products are protected from direct sunlight.
Cartons and products are protected from water and humidity (i.e., there is no evidence
of water damage).
Storage area is visually free from harmful insects and rodents, termites, etc. (check the
storage area for traces of rodents [droppings] or insects).
Determine whether storage room is cleaned and disinfected regularly.
Products are stored at the appropriate temperature according to product temperature
specifications.
Does the air conditioner work? Are there power outages? Is there a backup
generator, cylindered gas, or kerosene-powered refrigeration?
Roof is always maintained in good condition to avoid sunlight and water penetration.
Any evidence of leakage?
Products are stacked at least 10 centimeters off the floor. Ask whether the area floods.
Products are stacked at least 30 centimeters away from the walls and other stacks.
Products are stacked no more than 2.5 meters high.
Ask staff what they do in case of a fire. Is fire safety equipment available and
accessible (any item identified as being used to promote fire safety should be
considered, including fire extinguisher and sand or soil in a bucket)?
Manufacturing defects: incomplete supply, missing or illegible identification information.


                                                                                    27
                   APPENDIX IV



MAP OF OUTBREAKS




                         28
                    APPENDIX V



DISTRIBUTION OF
COMMODITIES SINCE
MARCH 2007




                         29
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
